USAID
OFFICE OF INSPECTOR GENERAL
             Audit of USAID/Russia’s
             Recipient Audit Universe


         Audit Report No. B-118-01-004-P

                           March 20, 2001




                               U.S. Agency for
                    International Development
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

RIG/Budapest


March 20, 2001

MEMORANDUM
FOR:              USAID/Russia Director, Carol A. Peasley

FROM:             Director of Audit Operations, RIG/Budapest, Nathan S. Lokos

SUBJECT:          Audit of USAID/Russia’s Recipient Audit Universe (Report No. B-
                  118-01-004-P)


This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on the draft report. Your comments on the draft report
are included in Appendix II. The report contains no recommendations for your
action. I appreciate the cooperation and courtesy extended to my staff during the
audit.




Page 1 of 10                                           Audit Report No. B-118-01-004-P
Summary of       USAID/Russia has a highly organized and well-documented audit management
Results          system to identify Russian organizations that require an annual audit of USAID-
                 funded expenditures and to track the organizations’ progress in arranging for the
                 timely completion of such audits. However, we identified one required audit that was
                 overlooked and not included with the five audits listed in the Mission’s audit
                 universe. The oversight was attributed to clerical error and the organization in
                 question will be required to have two years of disbursements audited in the upcoming
                 cycle rather than one.

                 In addition to the above, two of the five audit reports required to have been submitted
                 to USAID by September 30, 2000 had not been received as of late October 2000. We
                 understand that both audits are in progress and that the Mission expects to receive the
                 reports within another month.




Background
      Financia   Financial audits of contracts and grants are a primary basis for effective
                 management and control of USAID’s program expenditures. These audits are
                 designed to provide USAID management reasonable assurance that transactions
                 are properly recorded and accounted for; laws and regulations, and provisions of
                 contract or grant agreements are complied with; and USAID-financed funds,
                 property and other assets are safeguarded against unauthorized use.

                 In response to congressional concerns, USAID has taken an active role in recent
                 years in using audits as a management tool to improve financial accountability of
                 its programs. During 1991 and 1992, USAID revised its standard provisions for its
                 contracts and grants, requiring annual audits of non-U.S. organizations disbursing
                 USAID funds of $25,000 or more. The threshold was increased to $100,000 in
                 May 1994 and to $300,000 in July 1998.

                 In addition, USAID issued a General Notice in April 1992 defining the role of
                 USAID missions in obtaining audits of their contracts, grants and cooperative
                 agreements with non-U.S. organizations. In May 1996, these requirements were
                 incorporated into Chapter 591 of USAID’s Automated Directives System (ADS)
                 which, among other things, requires USAID missions to (i) establish an audit
                 management program; (ii) maintain an audit inventory database; and (iii) have
                 audits done for non-U.S. grants, contracts and cooperative agreements that meet
                 the audit threshold.

                 These initiatives are of far reaching consequence in preventing misuse of USAID
                 development funds and facilitating timely corrective actions. Lack of adequate


                 Page 2 of 10                                             Audit Report No. B-118-01-004-P
                 audit coverage constitutes an unacceptable risk because without such a control
                 mechanism, financial accountability of program expenditures cannot be reasonably
                 assured.

                 In March 1995, the Office of Inspector General (OIG) issued an audit report on
                 USAID’s implementation of USAID’s 1992 initiative to improve the financial
                 management of its programs (Report No. 03-000-95-009). The report concluded
                 that most missions had implemented the general requirements of the financial audit
                 management program and established audit inventory databases. However,
                 complete coverage was impaired as a result of obstacles arising from host
                 government restrictions and local audit firm capabilities.

                 In March 1998, the OIG issued a report on USAID missions’ roles in obtaining
                 audits of their contracts, grants and cooperative agreements (Report No. 9-000-98-
                 002-F). The report concluded that 11 of the 14 selected USAID missions generally
                 obtained audits of their contracts, grants and cooperative agreements as required
                 by ADS Chapter 591 but that a significant number of required audits were not
                 completed.
                 In May 2000, OIG management decided to verify the accuracy of USAID
                 missions’ recipient audit universe over a three-year period because lack of audit
                 coverage was perceived as a high-risk area. USAID/Russia was selected for this
                 review and included as part of RIG/Budapest’s FY 2001 audit plan.



Audit            RIG/Budapest performed this audit to answer the following question:
Objective
                 Is USAID/Russia’s audit universe accurate and complete and were required
                 audits conducted in a timely manner?

                 Appendix I describes the audit’s scope and methodology.



Audit Findings   Is USAID/Russia’s audit universe accurate and complete and were
                 required audits conducted in a timely manner?

                 The audit showed that the information presented in USAID/Russia’s universe of
                 required recipient-contracted audits was accurate. However, because one of the six
                 required audits for 1999 had erroneously been omitted, the audit universe—while
                 accurate—was not complete. Additionally, two of the required audit reports had not
                 been received by the September 30, 2000 deadline, although both audits are in the
                 process of being completed. Details of the audit findings are discussed below.




                 Page 3 of 10                                          Audit Report No. B-118-01-004-P
                          Identification of the Audit Universe

                          During fiscal year 1999, USAID/Russia disbursed approximately $80,040,7081 to 91
                          different organizations and companies including 79 U.S., 11 Russian, and 1
                          international organization. The table below provides a breakdown of these
                          disbursements by the type of agreement and type of recipient.


                           FY 1999             U.S.                     Russian                     International
                                               Organizations            Organizations               Organizations
                           Type of             Disbursements            Disbursements               Disbursements
                           Agreement
                           Contracts           $23,725,694              $104,700                    $0
                           Grants              $13,969,536              $1,133,801                  $5,000,000

                           Cooperative         $32,385,613              $3,157,170                  $0
                           Agreements
                           Others              $564,194                 $0                          $0
                           Totals              $70,645,037              $4,395,671                  $5,000,000
                           No.        of 79                             11                          1
                           Recipients

                          Similarly, during fiscal year 2000, USAID/Russia disbursed approximately
                          $68,345,926 to 72 different organizations and companies including 61 U.S., 10
                          Russian, and 1 international organization. The table below provides a breakdown of
                          these disbursements by the type of agreement and type of recipient.

                           FY 2000             U.S.                     Russian                     International
                                               Organizations            Organizations               Organizations
                           Type of             Disbursements            Disbursements               Disbursements
                           Agreement
                           Contracts           $21,610,670              $0                          $0
                           Grants              $9,075,911               $951,321                    $210,665

                           Cooperative         $30,226,357              $4,640,068                  $0
                           Agreements
                           Others              $1,630,934               $0                          $0
                           Totals              $62,543,872              $5,591,389                  $210,665
                           No.        of 61                             10                          1
                           Recipients




1
 As further discussed in Appendix I (Scope and Methodology), the disbursements presented in this report have not been
audited.


                          Page 4 of 10                                                   Audit Report No. B-118-01-004-P
This audit focuses on the Mission’s development and management of an audit
universe of the Russian entities receiving USAID funding. The audit universe for
U.S. and international organizations is managed by USAID/Washington. ADS
Chapter 591 requires audits of non-U.S. recipient organizations if their USAID-
funded expenditures exceed $300,000 during the recipient’s fiscal year.

USAID/Russia has a highly organized and well-documented audit management
system that relies primarily on Mission Accounting and Control System (MACS)
accounting records to identify Russian organizations that exceed the $300,000
audit requirement threshold. Unfortunately, the basic disbursement data contained
in MACS and presented above is available based on USAID’s fiscal year (twelve
months ending September 30) and is recorded when USAID makes a disbursement
or reimbursement to the organization. In contrast, the ADS audit threshold is
based on an organization’s fiscal year (in Russia this is generally the calendar year)
and when it expended—rather than when it received--the USAID funding.
Accordingly, the summary MACS data must be closely scrutinized to identify the
applicable organizations and often entails reviewing subsidiary accounting records
to determine whether or not the $300,000 threshold has been exceeded.

For calendar year 1999 expenditures, USAID/Russia began reviewing MACS
reports very early (fall of 1999) to identify its audit universe. This was done so
that organizations would have sufficient lead time to arrange for audits in order to
meet the September 30, 2000 deadline for submission of their audit reports. The
Mission first identified five organizations requiring audit. It then transmitted
USAID’s audit requirements to each of those organizations and offered any
necessary assistance. In each case, the organization had not previously had an
audit specifically performed to meet USAID requirements.

We reviewed the Mission’s system for identifying its audit universe and found that
the system was highly organized and well-documented. Also, the individual
primarily responsible for creating and maintaining the system was knowledgeable
of USAID audit requirements and when audits were--and were not--required. In
addition to the five required audits it had identified, the Mission had also arranged
with RIG/Budapest to have the Defense Contract Audit Agency conduct an audit
of another Russian entity—the Sakharov Foundation—that had disbursements
below the $300,000 threshold, but where an audit was deemed beneficial.
However, as discussed below, one required audit was incorrectly omitted from
USAID/Russia’s 1999 audit universe.

Audit Universe Was Not Complete

In our review of the Mission’s MACS database of disbursements to Russian recipient
organizations we identified a sixth recipient that was incorrectly excluded from the
1999 USAID/Russia audit universe. According to MACS records, the Center for
Energy Efficiency had two USAID agreements with USAID-funded expenditures of
$330,835 in 1999, thereby exceeding the $300,000 audit threshold. It is not entirely



Page 5 of 10                                            Audit Report No. B-118-01-004-P
clear why the entity was overlooked, but we suspect it was due to clerical oversight or
perhaps the modest amount by which it exceeded the threshold. The calculation of
1999 expenditures did require review of several vendor vouchers for each of the two
agreements. The organization has already been included in the audit universe for the
year 2000 and Mission officials stated they would ensure this upcoming audit
covered expenditures for both 1999 and 2000.

We also identified one organization (Institute for Urban Economics) with 1998
expenditures of $474,457 where the audit need had not been properly identified. The
requirement was missed because (1) the Mission’s audit universe management
system had not been fully established, (2) this was the only Russian organization with
an audit requirement for that year and the first for USAID/Russia, and (3) the
agreement in question was signed on September 17, 1998 and Mission officials
probably did not realize the threshold had been reached so quickly in only three
months. The 1998 USAID-funded expenditures have already been included in the
organization’s audit for 1999.



Mission Needs to Ensure Timely Completion of Required Audits

ADS Chapter 591 requires audits to be completed and reports to be submitted to
USAID within nine months from the end of the recipient’s fiscal year. Each of the
five Russian organizations included in USAID/Russia’s audit universe use the
calendar year as their fiscal year and audit reports for 1999 were due by September
30, 2000.

Only three of the five audit reports has been received by USAID as of October 27,
2000. One of the missing audits (Academy of Management and the Market) has
reportedly been completed by an American audit firm but the auditor has been ill and
the audit report has not yet been received from the U.S. The remaining audit (Junior
Achievement Russia) began in September 2000 and will probably not be completed
until mid-November 2000. The main reason cited for this audit’s delay is that the
audit firm is performing the audit at no charge as a contribution to the organization
and the audit was, therefore, not the firm’s highest priority.

Mission officials provided documentary evidence that the organizations in question
were alerted to the audit requirement and deadlines very early in the year and that the
Mission had made numerous reminders and inquiries during the year concerning the
audits’ status including involvement of the applicable activity managers. Mission
officials state they will redouble their efforts to get timely submission of reports for
calendar year 2000 and believe that the second audit for many organizations should
be easier to arrange and will expedite the audit process.




Page 6 of 10                                              Audit Report No. B-118-01-004-P
Management     USAID/Russia concurred with the findings and reaffirmed its commitment to (1)
Comments and obtain submission of recipient audits within established deadlines, and (2) assuring
Our Evaluation that expenditures made late in the recipients’ fiscal year are considered when
                     determining whether audits are required.




                     Page 7 of 10                                      Audit Report No. B-118-01-004-P
                                                                                       Appendix I



Scope and      Scope
Methodology
          he   The Office of the Regional Inspector General/Budapest performed the audit in
               accordance with generally accepted government auditing standards and assessed
               whether (1) USAID/Russia’s audit universe was complete and accurate, and (2)
               required audits were done in a timely manner. The audit was a part of
               RIG/Budapest’s FY 2001 audit plan.

               The audit focused on recipient-contracted audits that were supposed to have been
               completed and submitted to USAID/Russia by September 30, 2000. Russian
               organizations generally use the calendar year (CY) as their fiscal year and audits of
               their CY 1999 expenditures should have been submitted by September 30 of the
               following year (nine months later). We also identified any audits that should have
               been performed for CY 1998 expenditures. Field work was performed at
               USAID/Russia in Moscow, Russia from October 18 through October 27, 2000, and
               covered approximately $80.0 million and $68.3 million in USAID disbursements
               during the fiscal years ended September 30, 1999 and September 30, 2000,
               respectively.

               The audit criteria was principally comprised of Chapter 591 of USAID’s
               Automated Directives System (ADS) and the OIG’s “Guidelines for Financial
               Audits Contracted by Foreign Recipients” (Guidelines), July 1998 edition.

               Methodology

               The audit objective was to determine if USAID/Russia’s audit universe was
               accurate and complete and whether audits were being conducted in a timely
               manner. In answering the audit objective, we

                  (1) interviewed cognizant Mission officials,

                  (2) verified the accuracy and completeness of the Mission’s audit inventory
                  database by tracing selected data to source documents, such as agreements and
                  accounting records,

                  (3) reviewed a judgmentally selected sample of contracts, grants and
                  cooperative agreements to determine whether appropriate audit clauses and
                  funding for audits were included in the agreements, and

                  (4) reviewed audit reports and related correspondence to determine whether
                  required audits were performed in accordance with standards, guidelines,
                  timeliness and frequency requirements.




               Page 8 of 10                                           Audit Report No. B-118-01-004-P
                                                                        Appendix I


In addition, we obtained information on (1) total disbursements for all grants,
contracts and cooperative agreements (U. S. and non-U.S.) for fiscal years 1999
and 2000, and (2) the total number of grants, contracts and cooperative agreements
to obtain a complete picture of the Mission’s portfolio and to put the recipient-
contracted audit universe in proper perspective to the Mission’s activities.

We did not audit the accuracy of USAID/Russia’s MACS database system because
it was not directly relevant to our audit objective. Also, because of the small size
of our audit universe, we did not use a materiality threshold and considered even
one exception as significant for reporting purposes.




Page 9 of 10                                           Audit Report No. B-118-01-004-P
                                                                                               Appendix II



MANAGEMENT
    of the report].
COMMENTS

                              United States Agency for International Development

                           Local:      USAID/Moscow                U.S.     American Embassy / Moscow
                           Address:    19/23 Novinsky Bulvar       Mailing: PSC 77 USAID
                                       Moscow 121099, Russia       Address: APO AE 09721

                           Telephone: 7 – 095 – 728 5000           Fax:      7 – 095 – 960 2141 / 42




                                                                                    February 1, 2001


    MEMORANDUM

    TO:                Director of Audit Operations/Budapest, Nathan S. Lokos

    FROM:              USAID/Russia Mission Director, Carol A. Peasley        /s/

    SUBJECT:           Response to Draft Audit Report on Audit of the Accuracy of USAID/Russia’s
                       Recipient Audit Universe


    I would like to thank you and your auditors for the assistance provided to USAID/Russia
    during your review of USAID/Russia’s Recipient Audit Universe. The discussions during the
    audit which highlighted specific areas where USAID/Russia needs to heighten its awareness
    and attention were particularly helpful to my staff. We also appreciate the extra efforts the
    auditors took to assure that facts presented in the report were accurate and that the report
    provided a balanced presentation.

    Although there were no formal recommendations made in the draft audit report,
    USAID/Russia wishes to reaffirm its commitment to (1) redouble its efforts to obtain
    submission of recipient audits that meet the established deadlines, and (2) assure that
    expenditures made late in the recipients’ fiscal year are adequately considered in
    determinations made concerning recipient audits.

    Thank you again for your assistance.




                       Page 10 of 10                                           Audit Report No. B-118-01-004-P
